No. 19-1115

In the Supreme Court of the United States
AMERICAN BANKERS ASSOCIATION, PETITIONER
v.
NATIONAL CREDIT UNION ADMINISTRATION, RESPONDENT

CERTIFICATE OF COMPLIANCE
On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the District of Columbia Circuit
BRIEF OF AMICI CURIAE
IOWA BANKERS ASSOCIATION ET AL.
IN SUPPORT OF PETITIONER
As required by Supreme Court Rule 33.1(h), I certify that the accompanying Brief
As Amici Curiae In Support of American Bankers Association’s Petition For A Writ
of Certiorari in Case No. 19-1115 contains 3685 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
Executed on April 10, 2020.

STEVEN D. GORDON
Counsel of Record
HOLLAND & KNIGHT LLP
800 17th Street, NW, Suite 1100
Washington, D.C. 20006
202-955-3000
steven.gordon@hklaw.com
Counsel for Amici Curiae

#3175303

